No. 19-266
In The

^xx^remB C^nurt nf

Stales

Seantrey Morris,
Petitioner,
V.

Joseph Mekdessie; Brandon LeBlanc; Daniel Swears; Arthur S. Lawson, in his
Official Capacity as Chief of Police, City of Gretna Police Department;
Gretna City,
Respondents.

CERTIFICATE OF SERVICE

I, Clifford W. Berlow, hereby certify that I am a member of the bar of this Court
and that I have this 11th day of December, 2019, caused three copies of the foregoing
Brief In Opposition For Respondents to be served via electronic mail and UPS
overnight delivery, postage prepaid on:
Eric Alan Shumsky
Counsel of Record
Orrick, Herrington & Sutcliffe LLP
1152 15th Street, N.W.
Washington, DC 10019

ifford W. Berlow
i

I

